IN THE SUPREME COURT OF THE UNITED STATES
DAVID BOHLER,
Petitioner
v.
CITY OF FAIRVIEW, TENNESSEE
Respondent
CERTIFICATE OF SERVICE
I, Paul Andrew Justice III, counsel for the Petitioner, certify that on this 14th
day of September 2021, I have caused a copy of the Reply to Brief in Opposition to
be served via FedEx 1-Day Delivery, on the following counsel:
Kristin Berexa
Farrar and Bates
12 Cadillac Drive
Suite 480
(615) 254-3060
kristin.berexa@farrar-bates.com

Dan L. Nolan
121 South Third St
Clarksville, TN 37040
(931) 444-6076
dlnolan@batsonnolan.com

Attorney for Respondent
City of Fairview

Attorney for Timothy Shane
Dunning and Joseph Cox

I further certify that I have also delivered an electronic copy to counsel on
this date via email, and that all parties required to be served have been served.

Paul Andrew Justice III
Attorney for the Petitioner
1902 Cypress Drive
Murfreesboro, TN 37130
(615) 419-4994
drew@justicelawoffice.com

